4*

>

ORIGINAL

,
1 C3

- Mb

FILED
JUL 3 0 2020

%*mc
Supreme Court of tfje ^niteti States

OFFICE OF THE CLERK

♦
TANVEER S. MAJID,
Petitioner,
v.
CENTRAL INTELLIGENCE AGENCY (CIA)
Respondents,
♦
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
♦
PETITION FOR A WRIT OF CERTIORARI
♦
TANVEER S. MAJID
Petitioner * Pro Se
18903 Abbey Manor Drive
Brookeville, MD 20833*3247
Tel: 240-753-2960
E-Mail: Planters00000@gmail.com

0

r

QUESTIONS PRESENTED

In the Spring 2013, Petitioner came across a Central Intelligence
Agency (CIA) employee at the University of Maryland, College Park
Career Fair who began harassing Petitioner in a manner to indicate
their involvement Petitioner’s harassment collectively known as gang
stalking / targeting.
Petitioner prior to filing a lawsuit in U.S. District Courts
Petitioner first sought help with the CIA’s Office of Inspector General,
U.S. Office of Special Council, Federal Bureau? of Investigations, U.S.
Department of Justice, and U.S. Senator Ben Cardin.
Petitioner filed a Federal lawsuit following the inability of the
aforementioned Federal Agencies to help Petitioner.

The questions presented are1.) Are the Federal Courts abusing their dismissal powers?
2.) Are the Federal Courts ignoring Petitioner’s Complaint?

ii

♦'

PARTITES TO THE PROCEEDINGS
Petitioner Tanveer S. Majid was the Plaintiff and Appellant
below. Respondents Central Intelligence Agency (CIA) were Defendants
and Appellees below

RULE 29.6 DISCLOSURE
This does not apply .

fri

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

i

PARTIES TO THE PROCEEDINGS

H'

DISCLOSURE STATEMENT

n

TABLE OF CONTENTS

m

TABLE OF AUTHORITIES.
PETITION FOR A WRIT OF CERTIORARI.

1

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS.

2

INTRODUCTION

2

STATEMENT OF THE CASE

7

REASON FOR GRANTING THE PETITION.

17

CONCLUSION

32

TV

APPENDIX
Court of Appeals Opinion
la
District Court Opinion....
2a
District Court Order......
3a
Department of the Army, Bioeffects of Selected Nonlethal Weapons... 4a
Targeted Individuals / Gang Stalking Patents List....
5a
Missouri House of Representatives - James O. Guest • ••• • • »-» •• • ...... .^la
Human Auditory System Response to Modulated Electromagnetic
Energy — Dr. AllanH. Fry______ ____ _____ ___________ .....
*.. 7a'
Hearing of microwave pulses by humans and animals^ effects,
mechanism, and threshold —■ NIH................................................
Sa
Auditory response to pulsed radiofrequency energy - NIH......
9a
Gang Stalked / Targeted Individuals Across the U.S.A______ .........
F.B.I. findings about Aaron Alexis shooting...............................
11a
F.B.I. Bureau-Chief Ted L. Gunderson Affidavit on Gang Stalking.... 12a
Private Investigator John B. Lopes Article on Gang Stalking..
13a
U.S. Office of Special Council Hacking..---------------------------- ...... 14a
U.S. Department of Justice Response to CIA’s Harassment.....
15a
F.B.I’s Response to Senator Ben Cardin.................. ..................
16a
Important Aspects for U.S. Congressional Inquiry of the CIA’s
MKULTRA Program___________ __ ____ ________________
17a

V

TABLE OF AUTHORITIES
CASES

Page

Johnson v. Wylie, Kogan, Bolton, Analytica (No, IS-2246)........24
Denton v. Hernandez, 504 U.S. 25 (1992).......
Model Penal Code Section 2.02(7) and Willful Blindness.

......25
33

1

PETITION FOR A WRIT OF CERTIORARI
Tanveer S. Majid, respectfully petition for a writ of certiorari to
review the judgment of the United States Court of Appeals for the 4th
Oireuit in this matter.

OPINIONS BELOW
The decision of the D.S, Court of Appeals is reprinted in the Appendix
at la. The District Court’s opinion is reprinted in the Appendix at 2a.

JURISDICTION
TheCourtof Appeals entered its judgment on July 27, 2020, and
dismissed Petitioner’s appeals for the reason’s stated in U.S. District
Court of Maryland — Greenbelt, This Court has jurisdiction under 28
U.S.C. § 1331.

4

2

CONSTITUTIONAL AND STATUTORY PROVISIONS
The 14 Amendment of the United States Constitution states “No
state shall make or enforce any law which shall abridge the privileges
or im munities of citizens of the United States; nor shall any state
deprive any person of life, liberty, or property, without due process of
law! nor deny to any person within its jurisdiction the equal protection
of the laws.”
Petitioner is being discriminated against and is not being
afforded equal protection of the laws as the Federal Courts are
dismissing his Complaints despite the witnesses and evidence the
Petitioner is producing.

INTRODUCTION
Petitioner filed a civil action in U.S. District Court of Maryland —
Creenbelt on 1727/2020 for injunctive and monetary relief for the
substantial emotional distress inflicted upon the Plaintiff by the
Central Intelligence Agency in violation of United States Constitution

3

and Federal Laws. This action is brought to enforce significant and
ongoing violations of the United States Constitution and Federal Laws,
that is placing the Plaintiff at significant and immediate risk of harm,
and now death due to June 3, 2020 visit by Montgomery County Police
Officers Michael Chindblom and Beth Tabachnick “therapist” in an
attempt to silence Petitioner. The District Court (Civil Action No. S-2QCV'00233), and Appeals Court (No. 20-1276) dismissed Petitioner case
by abusing its dismissal powers and ignoring Petitioner’s Complaint.
In September 16, 2013 Aaron Alexis fatally shot 12 (twelve) people
and injured 3 (three) others in a mass shooting at the headquarters of
the Naval Sea Systems Command (NAVSEA) inside the Washington
Navy Yard in southeast Washington B.C. Aaron Alexis was also gang
stalked / targeted and made several attempts to halt his targeting and
gang stalking to no avail. It was the second-deadliest mass murder on
U.S. military base, behind the 2009 Fort Hood shooting. Aaron Alexis
was also complaining of frequency harassment as he described as
Extremely Low Frequencies (ELF). This same type of frequency
harassment is occurring towards Petitioner and numerous other

4

individuals withinthe United States. A FOIA from the Department of
the Army details this and how it is implemented (Pg. 4a).
Petitioner has also complied a Patent’s List which lists various
technologies available to attack, harass and locate an individual from a
remote location (Pg. 5a).
Petitioner also acquired a letter written by James O. Guest a
former Missouri House of Representative who was seeking help for
another individual who was experiencing frequency harassment. (Pg.
■6a).

Petitioner’s website with documents on targeting / gang stalking
URL is- httpsV/targetgangstalking. wixsite.com/marvland
One year later Myron Mays an Assistant District Attorney for
Dona Ana County, New Mexico who was also being gang stalked /
targeted, sought help to no avail as Aaron Alexis and subsequently shot
3 (three) people before being killed at Florida State University. Myron
Mays has documented his gang stalking / targeting via YouTubehttps V/voutu.be/Asc5JhrJ9B0.

5

The Petitioner has informed the Federal Courts who dismissed his
Complaint that there are hundreds of other eases in Federal Court that
are being dismissed, and thousands of other individuals are currently
being gang stalked J targeted and their perpetrators are avoiding
prosecution. The Petitioner has also informed the Federal Courts that
as with Aaron Alexis and Myron Mays that another mass shooting by
these gang stalked / targeted individuals is inevitable as the State and
Federal Authorities are dismissing their complaints or in the
alternative when they provide hard evidence they are labeled as
“mentally sick” to discredit them as Private Investigator John Lopes
explains in his article. The Petitioner is not a threat to anyone or
anything now or in the future.
Lt. Larry Richards of the Santa Cruz Police Department in
California acknowledges gang stalking / targeting as these events have
made the news. See Video - Gang Stalking on Fox News:
https://voutu.be/LZH21IXPSFk
On June 3, 2020 Montgomery County Police officer Michael
Chindblom with Beth Tabachnick a “therapist” and 3 (three) other
police officers came to Petitioner’s house in an attempt get him to drop

6

Ms law suit against the Central Intelligence Agency and commit him to
a Mental Health Hospital to discredit Petitioner and kill Petitioner
through medications and the Coronavirus (CQVIDti9) as they were
following Petitioner’s YouTube videos documenting the Central
Intelligence Agency’s targeting / gang stalking as Montgomery County
Police Officers were implicated in this. The Petitioner has filed a
Federal Complaint against these corrupt police officers in U.S, District
Court of Maryland — Greenbelt (Case #- B>20*CV-01517-TDC). See Video
- Corrupt Police Come To My Home To Harass Me About My CIA
Lawsuit- httpsV/voutu.be/N30YVxscvi8
Petitioner’s YouTube Channel is- Targeted Individuals Gang
Stalking in Maryland. The URL to Petitioner’s YouTube Channel ishttpsV/www, youtube,com/channel/UCcuHYbxpkG7gTlLCiJnYPHQ.
Petitioner’s Website ishttps7/targetgangstalking.wixsite.com/marvland
The U.S, Court of Appeals for the 4th Circuit dismissal of
Petitioner Complaint came off the heels of the attack of a Federal Judge
Esther Salas 9 (nine)' days after a gunman went to her home and killed
her son and wounded her husband while the Judge was in her

7

basement. The Petitioner believes his Federal Complaint was dismissed
as well others who have filed Federal Complaints against their gang
stalking / targeting because Federal Judges are threatened, coerced and
are frightened by these rogue Central Intelligence Agency employees.

♦STATEMENT OF THE CASE
1.

The Defendants, orchestrate and implement a campaign of

ongoing twenty-four (24) hours a day, seven (7) days a week of
harassment, stalking and surveillance, collectively known as “gang
stalking'’ that are violating Federal Laws and the Constitution of the
United States.
2.

Gang Stalking involves groups of individuals (gang stalking

groups) operating territorially and nationwide, and, in communication
and collusion with each other, to violate the civil rights of, and disrupt,
destabilize and finally destroy individuals who are put on a Stalking
List for various reasons. The gang stalking groups use both intensive
physical and electronic surveillance means to do this... including], but

s

not limited to- street theatre, in which targets of gang stalking are
subjected in public to rudeness, loud speaking and personal references
to themselves and their private activities by persons within the gang
stalking conspiracy, land] related flash mobbing, or the coming together
of an often large group of individuals in the gang stalking conspiracy to
disrupt, intimidate, harass and otherwise confuse a gang stalking
victim....” (Labella v. FBI - U.S. District Court Case #• l-ll-cv-00023NGG-LB ). The Department of Justice defines the term “stalking”
means engaging in a course of conduct directed at a specific person that
would cause a reasonable person to fear for his or her safety or the
safety of others or suffer substantial emotional distress.
3.

The Plaintiffs targeting of covert/overt harassment began at the

University of Maryland - College Park’s Spring Career Fair in 2013
when Plaintiff submitted to employment to various organizations
including the Central Intelligence Agency (CIA). For unknown reasons
an employee of the Central Intelligence Agency began to follow Plaintiff
closely behind his back and humming in a loud manner. This Central
Intelligence Agency employee is identified as an African American
woman who is approximately 5’9 in height. These actions by this

employee was a demonstration of the Plaintiffs future ongoing
relentless harassments, threats, stalking and surveillance that was to
occur. These actions that the Central Intelligence Agency’s employee
demonstrated upon the Plaintiff was repeated in an exact manner by
dozens of other individuals at various other locations including but not
limited to Plaintiffs place of grocery shopping, dining, and places of
errands.
4.

Subsequent to the aforementioned demonstration of Plaintiffs

initial targeting by the Central Intelligence Agency, the Plaintiff has
been subjected to coordinated harassment and threats by random
enlisted individuals as this occurs at Plaintiffs neighborhood in
Brookevilie, Maryland and outside of his neighborhood. The Plaintiffs
place of residence is under surveillance by unknown surveillance
technology^), as the Plaintiff is being made aware of his covert
surveillance through his electronic harassment being implemented by
very low frequencies. The electronic harassment by very low frequencies
are “pulsing” noises that are being directed at Plaintiff though the
electromagnetic spectrum at the range of 5 kHz which are imperceptible
toothers.

10

5.

The Plaintiff has been gang stalked across the state lines of

Maryland as this has occurred in Delaware, Pennsylvania, New Jersey,
New York, Washington D.C., Ohm, Indiana, and Illinois. The Plaintiff
in an attempt to elude these harassments, threats and surveillance
moved from his residence in Brookeville, Maryland to Chicago, Illinois,
These harassments, threats and stalking occurred in Chicago, Illinois.
6.

Frequency Harassment can scientifically be described as the

Microwave Auditory Effect. This was initially discovered by Dr. Allen
Frey in 1962 (Pg. 7a). The microwa ve pulse, upon absorption by soft
tissues in the head\ launches a thermoelastic wave ofacoustic pressure
that tra vels by bone conduction to the inner ear. There, it activates the
cochlear receptors via the same process involved for normal hearing (Pg.
Sa). Effective radiofrequencies range from 2. 4 to 10000MHz, but an
individual's ability to hear RFinduced sounds is dependent upon high
frequency acoustic hearing in the kHz range above about S kHz. (Pg.
9 a).
7.

There are numerous other individuals residing within the United

States that are experiencing some form of gang stalking and frequency
harassment (Pg. 19a). A notable individual that was being targeted for

11

frequency harassment and gang stalking was Washington Navy Yard
Shooter Aaron Alexis. In 2013 Aaron Alexis killed twelve (12) people at
Washington Navy Yard and prior to the shooting he was complaining of
frequency harassment and gang stalking. On his shotgun Aaron Alexis
etched “ELF’ an abbreviation for Extremely Low Frequencies in which
he was implying his frequency harassment. The Federal Bureau of
Investigations wrote him off as being “delusional” and did not
investigate further into this . (Pg. 11a). This is concerning to the
Plaintiff as these rogue individuals within the Central Intelligence
Agency who are orchestrating these gang stalking’s and frequency
harassment have continued their illegal activities after the Aaron
Alexis incident for no clear reason (despite any reasoning this is illegal)
other than for their own enjoyment. They have continued to conduct
this on numerous other individuals including myself with the due
disregard for human life, U.S. laws and the U.S. Constitution. These
rogue Central Intelligence Agency employees pose a threat to the
United States National Security. The Plaintiff is concerned that a
repeat of the Aaron Alexis incident could occur again if no action is
taken to bring these perpetrators to justice as this is continuing to occur

12

with numerous other individuals. The Plaintiff * Tanveer S-. Majid does
not now and never will in the future be a threat to anyone or anything
in any way shape or form
3.

A detailed affidavit by Ted L. Gunderson a retired Federal Bureau

of Investigations - Bureau Chief, Senior Special Agent in Charge, Head
of the Los Angeles FBI Field Office explains the aforementioned illegal
activities (Pg. 12a).
9.

The Plaintiff has consulted with Private Investigator John B.

Lopes of The Agency, Inc. Private Investigators in Maryland and
Virginia (Maryland State License # 106-2340, Virginia State License #
11-4330, District of Columbia License # 0313). John B. Lopes confirmed
that these events are occurring towards Plaintiff. John B. Lopes has
written a detailed article explaining the aforementioned illegal
activities (Pg. 13a).
10.

Plaintiff in Summer of 2017 contacted the Office of Inspector

General for the Central Intelligence Agency and spoke to an individual
named “Will.” Will stated to Plaintiff that necessary actions would be
undertaken to halt Plaintiffs targeting and gang stalking, Plaintiffs
targeting J gang stalking never ceased. Plaintiff again contacted the

13

Office of Inspector General for the Central Intelligence Agency in
Summer of 2019 and spoke to an individual named, “Nick.” Nick
acknowledged that Central Intelligence Agency does target individuals
but referred Plaintiff to law enforcement for further action.
11.

Plaintiffs computer is remotely being monitored. On November

Id — 15 2018, Plaintiff created an account with U.S. Office of Special
Counsel and attempted to file a complaint against the Central
Intelligence Agency. Plaintiff account was hacked into in an attempt
to deter Plaintiff from filing a complaint. (Pg. 14a).
12.

On November 18, 2018, Plaintiff filed a complaint with the

United States Department of Justice. On February 1, 2019, the
Department of Justice replied that Plaintiff does not have evidence to
warrant action by their office and stated that Plaintiff has already
contacted the proper authorities implying the Central Intelligence
Agency’s Office of Inspector General. The Plaintiff as prior stated
contacted the Central Intelligence Agency’s Office of Inspector General
(Nick) who referred Plaintiff to law enforcement. As Department of
Justice mentioned that Plaintiff does not have evidence, Plaintiff
provided proper documentation proving that the illegal activities are

14

/occurring. It is extremely difficult to provide physical evidence against
the gang stalking 7 targeting being orchestrated against Plaintiff by
rogue employees of the Central Intelligence Agency because of thenexpertise in leaving no tangible evidence. During this time Plaintiff
was extraordinarily harassed and threatened to dissuade Plaintiff
from filing a complaint (Pg. Ida).
13.

On December 5, 2013 Plaintiff felt a burning sensation on his

back. Plaintiff immediately realized that he was being assaulted by
radio frequency as tins has occurred to Plaintiff 2*3 times before and
Plaintiff had difficulty figuring out what it was. Plaintiff immediately
grabbed his radio frequency detector and Plaintiffs radio frequency
detector registered a full alert to the exact site of Plaintiffs assault
(Picture of Assault Submitted to District Court).
14.

On October 11, 2019 Plaintiff contacted United States Senator

far Maryland the Honorable Ben Cardin. Plaintiff submitted the same
information as mentioned in line 12. On January 24, 2020, Plaintiff
received a response from the Honorable Ben Cardin’s office a letter
from the Federal Bureau of Investigations stating that Plaintiffs
complaint is not within the Federal Bureau of Investigation’s

15

jurisdiction. This is on the contrary as the Plaintiffs complain does fall
within the Federal Bureau of Investigation jurisdiction and the
Plaintiff has clearly demonstrated in his complaint of Federal Law
violations and the FBI’s reply falls under the Willful Blindness
Doctrine. The Plaintiff is concerned as with the Aaron Alexis incident
of the refusal of the Federal Bureau of Investigation to investigate
these complaints and to halt these illegal activities (Pg. 16a)
15.

During the time Plaintiff contacted United States-Senator

Honorable Ben Cardin, the Plaintiff was ©nee again extraordinarily
harassed and threatened to dissuade Plaintiff from filing a complaint,
including staged vehicular collisions threats against Plaintiff. The
Plaintiff this time has managed to capture some of these incidents and
this is shown on his YouTube Channel.
16.

Plaintiffs targeting / gang stalking is a variation of the Central

Intelligence Agency’s previous MKULTRA program in which the
agency was supposed to have halted in 1973 (Pg. 17a).
17.

The Plaintiff is currently enduring death threats to dissuade

Plaintiff from filing this lawsuit.

16

18.

Plaintiff has fully exhausted his legal remedies to solve this

issue.
On January 27, 2020 the Appeals Court concurred with District Court
and dismissed Petitioner’s Appeal.
VIOLATIONS OF THE LAW
19.

The Central Intelligence Agency has violated IS U.S. Code

§ 2261A. Stalking.
20.

The Central Intelligence Agency has violated 18 U.S. Code §

2511. The Wiretap Act.
21.

The Central Intelligence Agency has violated Executive Order

13470.
22.

The Central Intelligence Agency has violated 18 U.S. Code

§ 113. Assaults within maritime and territorial jurisdiction.
RELIEF
23.

Order the Central Intelligence Agency to cease and desist all

surveillance, harassment, threats to Plaintiff as no government body
is currently taking a holistic or proactive view of Plaintiffs targeting i
gang stalking.

17

24.

Order an award for Plaintiffs damages of substantial emotional

distress, eontinnously fearing for his safety, unanswered crimes being
committed against him and disruption of his life for the past seven (7)
years due to the aforementioned facts/violations of the laws in the
amount of seven million dollars ($7,000,000)
25.

Grant any further relief as this Court may deem just and

proper.

REASONS FOR GRANTING^ THE PETITION
I.

Did the District and Appeals court largely ignore Plaintiffs

complaint and selectively choose what to discern?
1.

The District Court cited the following- A complaint is frivolous

where “it lacks an arguable basis either in law or in fact .” McLean v.
United States, 566 F.3d 391, 399 (4th Cir. 2009) (quoting Neitzke, 490
U S. at 327).
2.

The Plaintiff argues the district court selectively choose what to

discern and largely ignored Plaintiffs complaint. The Plaintiff has
clearly demonstrated an arguable basis in law and fact specifically

18

stalking, harassment, intimidation and assault. The Plaintiff further
argues that he supported these with documentations (attachments) that
were not referenced in the district court’s Memorandum Opinion. The
Plaintiff submitted fifteen ths) attachments with one of them being an
exhibit. Fourteen (14) attachments were ignored andonly the exhibit
was referenced.
The Plaintiffsubmitted the following attachments in his District Court
Complaint and to the Appeals Court'
Attachment A — I sabella v. Federal Bureau of Investigation
Attachment B— U. S. Department of Justice definition of
“Stalking”
Attachment C — Dr. Allen Frey- Human auditory system response
to modulated electromagnetic energy.
Attachment D — National Institutes of Health (NIH)- Hearing of
microwave pulses by humans and animals- effects, mechanism, and
thresholds.
Attachment E - National Institutes of Health ^NIH)- Auditory
response to pulsed radiofrequency energy

IS

Attachment F— Surveillance Survivors list of gang stalking
victims. (The URL for this page has been updated to
https• //www. surveillancesurvivors.org/local-networking.html) from
what was listed on the original attachment
https 7/www. surveillance survivors .or g/networking, html).
Attachment G - Law Enforcement Shares Findings of the
Investigation into the Washington Navy Yard Shootings.
Attachment H— Affidavit by Ted L. Gunderson a retired Federal
Bureau of Investigations * Bureau Chief, Senior Special Agent in
Charge, Head of the Los Angeles FBI Field Office .
Attachment /— Gang Stalking article by Private Investigator John
R. Lopes of The Agency, Inc. (Private Investigators in Maryland and
Virginia (Maryland State License # lQfi-2340, Virginia State License #
1-1-4350, District of Columbia License # 0813).
Attachment J— U.S. Office of Special Council website hacking.
Attachment K— My complaint to the U.S. Department of Justice J
U.S. Office of Special Council. (Within this complaint are the 10 (ten)
following attachments.
L^Labella v. Federal Bureau of Investigation

20

2.) Central Intelligence Agency (CIA) — Office of Inspector
General contact information
3^) National Institutes of Health (NIH) ' Hearing of
microwave pulses by humans and animals^ effects,
mechanism, and thresholds.
4.) National Institutes of Health (NIH)- Auditory response to
pulsed radiofrequency energy.
S.) Methods of Implementation of Microwave Auditory Effect
(patents)A.) US3393279A - Nervous system excitation device!
B.) US334797GA - Method and system for simplifying
speech waveforms.
6.) Voice to Skull Definition by U.S. Army (also known as
Microwave Auditory Effect)
7.) List of U.S. Patents
8.) Affidavit by Ted L. Gunderson a retired Federal Bureau
of Investigations - Bureau Chief, Senior Special Agent in
Charge , Head of the Los Angele s FBI Field Office .

21

9.)Gang Stalking article by Private Investigator John B.
Lopes of The Agency, Inc. (Private Investigators in Maryland
and Virginia (Maryland State License # 106-2340, Virginia
State License # 11-4360, District of Columbia License #
0816).
10.) Central Intelligence Agency (CIA) hacking evidence of
Office of U.S. Special Council
Attachment K-l — Pictures ef my Radio Frequency Assault
Attachment L — FBI’s Reply to U.S. Senator Ben Cardin
Attachment M(Exhibit M) — Videos — Segments 1-4 “Vehicular
Collision Threats”,
“Police Corruption Montgomery County, MD,” “Video Descriptions,”
“YouTube Link.” (For Plaintiff s YouTube Link, under ABOUT lists
Plaintiff website - https -//tar getgangstalking.wixsite. com/marvland.
which has many documents to support Plaintiffs Complaint in the
DOCUMENTS section.
Attachment ^(incorrectly listed as Exhibit O on attachment) Important aspects from the U.S. Congressional Inquiry into the

22

Central Intelligence Agency’s MKULTRA program, as well as the
entire CIA’s MKULTRA Program Congressional Inquiry.

a.

The Plaintiff additionally Msted Violations of the Laws (his claims)

in his complaint to complement Plaintiffs basis in law and fact which
are the following*
1.) The Central Intelligence Agency has violated

U.S. Code §

2261A. Stalking.
-This was clearly explained through Plaintiffs explanation of
his stalking in the State ofMaryland and across state lines
in his complaint.
2). The Central Intelligence Agency has violated IS- U.S. Code §
2511. The Wiretap Act.
-This was clearly explained with proofshown ofhacking of
U.S. Office ofSpecial Council hacking when Plaintifftried to
file an online complaint against the Central Intelligence
Agency (CIA) in his complaint.
a.) The Central Intelligence Agency has violated Executive Order
13470.

23

-The United States Government has a solemn obligation,
and shall continue in the conduct ofintelligence activities
under this order, to protect fully the legal rights ofall United
States persons, including freedoms, civil liberties, and
privacy rights guaranteed by Federal law. (Executive Order
13470, 1.1(b)).
4.) The Central Intelligence Agency has violated 18 U.S. Code §
113. Assaults within maritime and territorial jurisdiction.
-The Plaintiffclearlydemonstrated this through his
frequency attack with images ofhis assault (Attachment Kl) in his complaint.
4.

The District Court stated the following- “Plaintiff alleges that the

CIA is subjecting him to frequency harassment” which includes being
assaulted electronically through radio and microwave frequencies,”
The Plaintiff argues that the District Court did not express its
opinion on this as Plaintiff showed proof with pictures (Attachment Kl), and documentation from Dr. Allen Frey (Attachment C) who
discovered the Microwave Auditory Effect and the National Institutes of
Health articles (Attachment D, Attachment E) that clearly and simply

24

explains this and the Plaintiff summarized this on his complaint. The
Plaintiff continues to argue that the reason for this is the district court
ignored fourteen (14) of the fifteen (15) submitted attachments .
5.

Plaintiff further argues that the United States Court of Appeals

for the Third Circuit upheld the dismissal of a complaint from the
Western District Court of Pennsylvania by citing “We agree with the
District Court that Johnson’s complaint was properly dismissed under §
1915(e)(2)(B). Johnson alleged no specific actions taken bv the
defendants which caused her any harm.” Johnson v. Wylie» Kogan,
Bolton, Analytica (No. 18-2246). The Plaintiff has demonstrated with
this frequency attack as well with his stalking, harassment and
electronic surveillance, the defendant’s harm of him and his complaint
should not have been dismissed.

II.

Did the District Court and Appeals Court abuse its dismissal
powers?

1.

The District Court stated, “Plaintiff filed this complaint in forma

pauperis pursuant to 2&U.S.C.

1915(a)(1), which permits an indigent

litigant to commence an action in this court without prepaying the filing

25

fee. To guard against possible abuses of this privilege, the statute
requires dismissal of any claim that is frivolous, malicious, or fails to
state a claim on which relief may be granted. 28 U.S.C. §
1915(e)(2) (B)(i) and (ii). When considering whether a claim is frivolous,
§ 1915(e)(2) grants courts “the unusual power to pierce the veil of the
complaint’s factual allegations and dismiss those claims whose factual
contentions are clearly baseless.” Neitzke v. Williams\ 490 U.S. 519, 327
(1989).”
2.

The Plaintiff argues his complaint was not filed frivolously as the

Plaintiff stated in his complaint that he attempted to resolve this issue
seven (7) times outside of the District Court by first contacting the FBI,
then contacting the CIA Office of Inspector Ceneral (2018), U.S. Office
of Special Council, U.S. Department ofJustice, CIA Office of Inspector
Ceneral (2019), FBI afterwards, and U.S. Senator Ben Cardin. The
Plaintiff further argues that the U.S. Supreme Court held the following“However, in order to respect the congressional goal of assuring equality
of consideration for all litigants, the initial assessment of the in forma
pauperis plaintiffs factual allegations must be weighted in the
plaintiffs favor.” Denton v. Hernandez, 504 U.S. 25 (1992). .

26

3.

The district court stated the following- “Text is included in the CD

indicating Plaintiffs belief that these otherwise innocuous e vents
represent people that were given has location by “Rogue US Intelligence
Agency employees” to spy on Plaintiff.” The district court further states
“Because the complaint fails to provide any information that might lead
to a reasonable conclusion that some plausible cause of action has
accrued on Plaintiffs behalf, it will be dismissed pursuant to §
1915(e)(2).”
4.

The Plaintiff argues the district court abused its power to dismiss

his complaint, this exhibit as prior stated was only one (l) of the fifteen
(15) attachments submitted to the District Court. The Plaintiff further
cites the following from the U.S. Supreme Court. “Whether or not there
are judicially noticeable facts available to contradict them, but a
complaint cannot be dismissed simply because the court finds the
allegations to be improbable or unlikely.” Denton v. Hernandez, 504
U.S, 25(1992).
5.

The Plaintiff further argues that the United States Supreme

Court hekt “Because the frivolousness determination is a discretionary
one , a § 1915(d) dismissal is properly reviewed for an abuse of that

27

discretion. It would be appropriate for a court of appeals to consider,
among other things, whether the plaintiff was proceeding pro se,
whether the district court inappropriately resolved genuine issues of
disputed fact, whether the court applied erroneous legal conclusions.
whether the court has provided a statement explaining the dismissal
that facilitates intelligent appellate review, and whether the dismissal
was with or without prejudice.” Denton
v. Hernandez, 5G4 US. 25 (1992).
OTHER GASES RELATED TO TARGETING l GANG STALKING
The Appellant has researched various other cases that have been
filed in US. District Courts that have also been dismissed, they have
even been dismissed on appeal in the U.S. Court of Appeals. The
Appellant has shown hundreds of individuals who are being targeted l
gang stalked in his complaint (Attachment F). There have also been
numerous other cases where the FBI has refused to investigate or help
these individuals as is with my case. In my case the Central Intelligence
Agency Office of Inspector General acknowledged that they do target
individuals (Nick - employee), and stated that, “these activities would
not occur on US. sod” (WiU - employee). The Appellant has also shown

28

to district court that Aaron Alexis in a cry far help killed twelve (l 2)
people in the Washington Navy Yard shootings on September 16, 2016
as he was complaining of targeting / gang stalking. Yet after that
incident this is still continuing as he was labeled “mentally sick” so the
perpetrators would get away with this, because if the general public
knew what the Central Intelligence Agency was doing there would be a
massive protests and uprising against this government, as this is
continuing and it is concealed (covered-up). This mass shooting is
inevitably going to happen again, it’s just a matter of time. Eelate this
to Adolf Hitler and how he was widely popular in Germany, but when it
was discovered of his secret killings of millions of Jews amongst others
in concentration camps, he lost his popularity and now it is illegal in
Germany and certain other countries to give the Hitler Salute. Mental
sickness is fabricated excuse to discredit the victim, as was with the
Aaron Alexis incident. “Lawson writes that the victim is intentionally
“sensitized” to the presence of the stalkers, so that he or she will know
that the occurrences are orchestrated. “It is a psychological reign of
terror intended to make victims look crazy and to keep them in a
constant state of hyper-vigilance (anxiety and stress) concerning what

29

will happen next” — Private Investigator John Lopes (Attachment I)” A
retired Federal Bureau of Investigation Bureau Chief - Ted L.
Gunderson wrote a sworn notarized affidavit on targeting l gang
stalking and the district court gave him no value. After the Aaron
Alexis incident, Myron Mays a former state Prosecutor who was
complaining of targeting / gang stalking went on a shooting spree on
November 20, 2014 in a cry for help (watch his YouTube videos).
Despite this targeting / gang stalking is still continuing not only for
myself but for thousands of other individuals.
Since the mass shootings that Aaron Alexis and Myron Mays
executed this is most likely have occurred again to this date and has
been most likely been covered up (perhaps you should watch the news
and determine for yourself), and it is almost certain that this is going to
happen again and again. On the unfortunate scenario where it is you
that is in the middle of the next mass shooting of a targeted / gang
stalked individual that no one is willing to help or your spouse and
children are the next victims and their dead, bloody bodies will be
shown on the news as was the case with the Las Vegas shooter, then
the Courts will take these complaints seriously instead of dismissing

30

them by citing them as frivolous, failing to state a claim or outlandish.
This seems to be the standards of U.S. Federal Courts with complaints
of targeting / gang stalking. It is you that the American public has
entrusted to uphold the law and keep them safe through your
appointment of the President and confirmation of the Senate that the
American public has elected to office. The Appellant - Tanveer S. Majid
does not now and never will in the future be a threat to anyone or
anything in any way shape or form.
See Following Related Cases Related to Targeting /Gang Stalking.
Lahella v. Fed. Bureau of Investigation (11-CV-Q023)
United States y. Williamson (Criminal Action No. 14-151)
McMahon v. Johnson (12-CV-5878)
Brown v. Express Scripts (4-17CV866)
O'Neal v. Milwaukee Wis. U.S. Dep't of Justices (l8-cv-385*pp)
Brown v. Express Scripts (Case No. 4-17CV8S6)
Kelsey v. United States (3-lS-cv-1009-J-32MCR)
McMahon v. Johnson (12-cv5878)
Toro v. City of N.Y. (12-CV-4Q93)
Shelton v. Crookshank (3-17-CV-108)

31

Akwei v. NSA (L92-cv-00449-SS)
This is a fraction of the thousands of lawsuits filed similar to mine.
RELIEF REQUESTED
1.

Order the Central Intelligence Agency to cease and desist all

surveillance, harassment, threats to Appellant as no government body
is currently taking a holistic or proactive view of Appellant’s targeting l
gang stalking.
2.

Order an award for Appellant’s damages of substantial emotional

distress;, continuously fearing for his safety, unanswered crimes being
committed against him and disruption of his life for the past seven (7)
years due to the aforementioned facts/violations of the laws in the
amount of seven million dollars ($7,900,900).*
3.

Grant any further relief as this Court may deem just and proper.

*If this Court does not want to award Appellant damages of substantial
emotional distress, continuously fearing for his safety, unanswered
crimes being committed against him and disruption of his life for the
past seven (7) years due to the aforementioned facts/violations of the
laws in the amount of seven million dollars ($7,900,000) which the

32

Appellant believes he is entitled to, at the very least Order the Central
Intelligence Agency to cease and desist their targeting J gang stalking of
Appellant. Because this targeting / gang stalking of Appellant is a
waste of Appellant’s life. As these rogue CIA individuals who are
orchestrating this are apparently getting a narcissistic high during the
time Appellant filed his complaint in district court by relaying to him in
addition to his death threats, that his complaint will be dismissed, and
now his Appeal is going to be dismissed.

CONCLUSION
The United States District Court of Maryland — Greenbelt, as well
as the United States Court of Appeals for the 4th Circuit did not care
or are being coerced to dismiss Plaintiff Complaint’s as they gave no
credence to the innocent people being killed and tortured e very day
including Petitioner himself, despite the overwhelming evidence
presented to them. Despite the Federal Courts reasoning’s to dismiss
my Complaint, they are themselves Violating the Law and U.S.
Constitution as they allowing these acts to continue with impunity as

33

they are displaying Willful Blindness per Model Penal Code Section
2.02(7). This petition for a writ of certiorari should be granted.

c^LLATTACHMEStS

(^r^^k)~wMEjTTtMTTnr^IJ UflfAPgTft

RESPECTFULLY SUBMITTED this 6th day of August, 2020

Tanveer S. Majid—Petitioner, Pro se
18903 Abbey Manor Drive
Brookeville, MD 20833-3247
Tel: (240) 753*2960
Email: Planters00000@gmail.com

